     "+




Department of Health and Human Servces

       OFFICE OF

  INSPECTOR GENERA





 ELECTRONIC MEDIA CLAIMS AND

   CONTRACTORS' FOR- PROFIT

        SUBSIDIARIES



   A MANAGEMENT ADVISORY REPORT




          SU.VICt,r


                      Richard P. Kusserow
                      INSPECfOR GENERA

          "'a             OEI- 12-91-01410
                                       EXECU SUMY

PUROSE                To discuss current practices at several Medicare contractors which have
an impact on electronic media claims (EMC) submission.

BACKGROUN                   Both the Health Care Financing Administration        (HCF A) and the
OIG have become aware of allegations that certain contractors refuse to cooperate

with some biling servces which wish to submit EMC. This refusal would violate

HCF A' s instructions to provide the formats and edits needed to bil. These

contractors , among others , are also alleged to require use of          their subsidiaries

software to submit EMC, which might violate antitrust law.


MAOR FIINGS                    The four contractors (three intermediaries and one carrer)
reviewed appear to provide for EMC submission of Medicare claims for most
providers , in accord with Transmittal 1507.                              tyes of

The three intermediaries , however, refuse to accept direct computer- to-computer

EMC submissions for their private line of business unless the provider uses their

subsidiary s       software for the transaction.



The contractors ' practices of requiring biling servces and health care providers to use
the contractors ' for- profit EMC subsidiaries may violate Federal antitrust
                                                                             laws.
MAOR RECOMMNDATIONS                          To enhance increased EMC activity, the HCFA
should:

              Monitor compliance with Transmittal 1507 , particularly the timeliness
                                                                                     with
              which contractors fulfil requests for lists of edits.

              Determine the number and tye         of subsidiaries at each contractor , and their
              roles with respect to Medicare.

              Consider the use of a clearinghouse ,    which would receive and distribute claims
              from all providers for all payers.

              Remain aware of contractors ' general business operations. Anti-competitive
            activity may have a negative effect on innovation and technological growth in
            the industry, and limit HCF A' s future options. Consider requiring bidders on
            future contracts to guarantee equal acceptance of properly-formatted         claims
            from all bilers to all payers , both private and Medicare.

The HCFA' s comments on the draft of this report were taken into consideration in
revising the final report. The comments are appended in full.
          ..........................
          .. .. .. .. .. .. .. .. ... .............. . .... .... .......
                                           ... .... .......                            .........
                                                                               . .... ...
                                                                      . ............
                                                                    ....
                                                                 .....                          . .... .... ..... ..........
                                                                 .. ..................................
                                                                                         ............                 .... .... .. . . ........
                                                                                                                      ......           .. .......                ..........
                                                                                                                                                                      ........... .. ... .... .... ............
                                                                                                                                          .. .... ... .... ..... .........................
                                                                                                                                                                  ....................              . ... .. .... .... ...........
                                                                                                                                                                                                   ....




                          TABLE OF CONTENTS



EXCU SUMY
PUROSE.
BACKGROUN.
MEODS
FIINGS
RECOMMATIONS
APPENIX HCFA'                           COMM
PUROSE
The purpose of this management advisory report is to discuss current practices
several Medicare contractors which have an impact on electronic media clais (EMC)
submission.


BACKGROUN
The director of the Health Care Financing Administration s (HCFA) Bureau of
Program Operations asked the Offce of Inspector General to determe if EMC
submision was being impeded by contractor policies. A national bilg servce has
alleged that various contractors have not made avaiable to them the formats and edits
needed to submit error-free electronic claims , which they believe has had the effect of
limting free and open competition and thus raising costs to Medicare. Additionally,
both bilng servces and health-care providers have alleged that some contractors
refuse to accept direct computer- to-computer EMC submissions except when
submitted through the contractors ' for- profit EMC subsidiaries.

The HCF A had issued instructions to intermediaries (contractors which process claims
for institutional providers , such as hospitals and skilled nursing facilties) in December
199. These instructions , issued as Transmittal 1507 Medicare Intermediary Manual.
Part 3 - Claims Process. require intermediaries to provide detailed copies of their
consistency edits to all providers interested in EMC submission and to provide copies
of edits and billng procedure changes to all providers and bil submitters from whom
they receive EMC.

The Secretary of Health and Human Servces has publicly supported uniform,
automated record- keeping procedures, including EMC. Medicare is the largest single
payment source for many hospitals. Since HCF A usualy contracts with only one
intermediary per State ,that State s intermediary has an disproportionate impact on
the hospitals because of its unique status vis-a-vis Medicae.

Hospitals have transferred many record- keeping functions to integrated computer
systems. The advent of the Prospective Payment System (PPS) in 1983 generated
interest in computer systems which could lik the demographic, fiancial and clical
data needed to generate a Medicare clai. For many hospitals , the ideal biling
system would be one which would download inormation from a variety of sources into
a computer program which would then create " claims " for every insurer responsible for
the hospital' s   patients. Such a program could then send the claims electronically to
computer systems for Medicare , Medicaid , Blue Cross, and other commercial
insurance , without the need for rekeying or reformatting any of the necessary data.
Some hospitals have created such programs , working with their various insurers; others
have purchased such systems from or through     billig servces; and stil others have
access to clearighouses which redirect claims to various sources , with or without
editing them. Being required by one insurer to use a certain softare program , or
language inconsistent with other insurers , defeats the effciencies achieved by these
sophisticated programs.

The health insurance industry has changed greatly since Blue Cross plans came into
existence in the 1930' s. Two early advantages that allowed for the growth of the plans
were their tax-exempt status and special relationships with hospitals , whose
adminstrators and trustees formed the boards of the plans. Most Blue Cross plans
provided servce benefits , rather than indemnifng the patient or employer against
losses. Thus State insurance regulators required their reserves to be servces rather
than cash. All these features have changed: Blue Cross plans lost their tax-exempt
status in 1986; their boards are no longer composed of hospital representatives; some
plans are now "mutual" plans , which return operating surpluses to policy- holders.
Additionally, many plans have created for- profit subsidiaries which carr out functions
formerly done " in- house " including marketing, claims processing, and product
development, and own subsidiaries such as health maitenance organizations and life
insurance companies.

The practice of requiring customers to purchase one , possibly unwanted , good or
servce before allowing them to purchase a desired goo or servce is known as "
                                                                                    tyng.
Antitrust law generally prohibits this practice. Similarly prohibited are price fing and
allocation of terrtories by market rivals. Although the McCarran- Ferguson Act of
1945 exempts the ' 'business of insurance " from the antitrst laws , this exemption does
not apply to activities of insurance companies unrelated to the underwting or
spreading of risk and the relationship between the insurer and the insured. Legislation
has been introduced in both the Senate (S. 430 ,   introduced by Senator Metzenbaum)
and House (H. R. 9, introduced by Representative Brooks) callng for modifications of
the McCarran- Ferguson Act , which has over the years come to be widely interpreted
as exempting insurance companies from antitrust laws. Both versions would outlaw
tyg, among other anti-competitive behaviors , in the inurance industry.


MEODS
We conducted intervews with contractor personnel at thee intermediaries (Blue
Cross of Arona, Blue Cross of South Caolina , and Blue Cross of Virginia) and one
carrer (Blue Shield of Maryland), health-care providers and associations, biling
agencies , and HCFA staff, regarding practices at these contractors. We did not
attempt to verify allegations related to activity before Transmittal 1507 was issued.
Our priary focus was the ease with which providers can electronically submit
Medicare claims , but we also tried to determine the forces within the contractors
which have an impact on EMC.
FIINGS
The four contractors reviewed appear to provide for EMC submission of Medicare
claims for most tyes of providers , in accord with Transmittal 1507. We believe that
they no longer refuse to cooperate with requests for edits.

The three intermediaries , however , refuse to accept direct computer- to-computer
EMC submissions for their private line of business unless the provider uses their
subsidiary s software for the transaction. This subvert the prohibition in Transmittal
1507 against requiring rekeying of claims data       Medicare claims can be submitted
                                                 , since

electronically. The effect , however, is that hospitals have to use the subsidiary s system
for all tyes of claims , or have two systems   running concurrently, in order to   bil
computer-to-computer to all insurers. Biling     servces which have devised systems
better meet their customers needs must purchase the contractor s servces as well
making their prices less competitive than they would otherwse be.

Contractors may have a marketing advantage as a result of their Medicare contract.
They market their EMC package as superior to competitors ' in the servces offered
since they have more direct access to the status of pending claims , including Medicare
claims. However, this claim may not in fact be true , since private biling servces can
offer hospitals other enhancements, tailored for the hospital' s overall accounting
system.

Small providers or groups of providers may not be able to submit Medicare claims
electronically in all jurisdictions, even when they have the capabilty (or have
contracted with a billng servce) to do so , because contractors have not made the
necessary modifications to their systems. Because the providers are small , the
contractors feel they are a low priority. Their small siz , however, is what makes them
financially vulnerable to delayed paper claims and the wait for   a remittance advice in
order to bil a   supplemental payer.

The contractors ' practices of requiring biling servces and health care providers to use
the contractors ' for- profit EMC subsidiaries may violate Federal antitrust laws.



RECOMMATIONS
To enhance increased EMC activity, the HCF A should:

      Monitor compliance with Transmittal 1507, partcularly the timeliness with
      which contractors fulfill requests for lists of edits.

      Require regional office contractor representatives to determne the number and
      tye of subsidiaries at each contractor, and their roles with respect to Medicare.
       Work with contractors which are not able to accmmodate electronic bils from
       all tyes of providers to develop simple generic programs , for example , which
       small providers can use in different jurisdictions. This would be simplified by
       more consistent carrer programs and systems.

       Consider using a clearinghouse , which would receive and distribute claims from
       all providers for all payers. Effective and effcient administration of the
       Medicare program may require such an initiative , as EMC and computerized
       medical records form a larger part of the claims system. Such a clearinghouse
       could be an existing one , one created by a consortia of contractors , or one
       created centrally by HCFA.

       Remain aware of your contractor s general business operations. Those insurers
       which have used aggressive tactics to compel providers to use their subsidiary
       products or servces are then able to further aggandize their market share.
       This anti-competitive activity may have a negative effect on innovation and
       technological growth in the industry, and limit HCF A' s future options. The
       HCF A may wish to consider requiring bidders on future contracts to guarantee
       equal acceptance of properly- formatted claims from all bilers to all payers
       both private and Medicare.

In commenting on the draft version of this report , HCFA indicated they believe they
lack the authority to address potentially-abusivebehavior in the contractors ' private
lines of business. Thus , we have eliminated a recommendation that HCFA consult
with the Antitrust Division of the Department of Justice concerning the contractors
activities. We have kept and expanded upon the last recommendation regarding
contractors ' business activities in relation to their work for HCF A and added a
recommendation that HCF A consider the use of a clearnghouse. These
recommendations attempt to identify ways HCF A can address those contractor
activities which inhibit electronic submission of claims while remaining within the
scope of HCF A' s current authority.
APPENDIX: HCFA' s COMMENTS

                                      \/ 	           .._                  . .... . -::'..\ .
                                                                   . \. ..- ..-. .   .. :. '-,   -",     - ..            "'-'-
                                                                                                                                 "-t-­
                                                                                                 .A-            t.('7   Health Care
                   DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                       nJ
                                                                                                                        Financing Administration
                                                                                            /- C/3

                                                      ;:.J            100	
                                                                      J..tt                                             Memorandum
Date	                                                                                                                                              ' /+ A-
                       Gail R. Wilensky, Ph. Da-i.
From
                       Admiistrator




Subject	               OIG Draft Management Advisory Report - " Electronic Media Oaims and
                       Contractors ' For- profit Subsidiares " OEI- 12- 91- 01410

                       Inspector General
                       Offce of the Secretary


                     We have reviewed the subject draft management advisory report. At the
                    Health Care Financing Administration s request, OIG reviewed current
                    practices at Medicare contractors to determine if electronic media
                                                                                       claims
                    (EMC) submission was being impeded by contractor policies.

                     The report found that three of the four contractors reviewed refuse to accept
                    direct computer- to-computer EMC submissions for their private line
                    business unless the provider uses its subsidiary s softare for the transaction.
                    OIG alleges that this practice could then make bilng servces
                                                                                     that have
                    devised systems for Medicare biling      less competitive ,                    since the provider would
                    be required to purchase the contractor s     se        ces in any case.

                     The report contains five recommendations. Our comments on
                                                                                 these
                    recommendations , as well as a general comment on the report
                                                                                                                     , are attached.

                    Thank you for the opportunity to review this drat management
                                                                                   advisory
                   report. Please advise us whether you agree with our position on the report
                   recommendations at your earliest convenience.



                   Attachment


          iG

          ?DIG

          CTG. AS
         DIG. c;.r 

         DIG- or 

         AIG-Ml)

        OGC/IG

        EXSEC

        DAT SEN



                                                                                                       \.::.t
                                                                                      .-r
 Comments of the Health Care Financing Administrtion (       A) on t

          OIG Draft Management Advsory Report - " Electronic

          Media Oaims and Contractors ' For- profit Subsidiaries

                             OEI- 12- 91- 01410


 Recommendation

 HCF A should monitor compliance with Tramitt 1507, parcularly the
 timeliness with which contractors fi         requests for lits of edits.

 Response

We agree with thi recommendation. In addition, we are drafg
                                                              electronic
media claims (EMC) instructons which wi prohibit contrctors from favorig
providers or billig servces that submit claim through the parent companies
for- profit   subsidiaries.




Recommendation 2


HCFA should consult           with the   Antitrt Divion of    the Deparment of Justice
to detennine whether the contractors ' actions violate
                                                               antitrt laws.
Response

We disagree with this recommendation. As the             report points out, the
questionable actions on thepar of contrctors occ only in their priate lies
of business with which HCF A is not diectly involved
                                                      Therefore, we believe it
would be inappropriate for us to approach the Deparent of
                                                                Justice (DOJ)
concerng possible antitrt violations in these prite businesses.      Such action
should be taken by the company or entity that believes it is being
contractor
                                                                   hared by
              s policies.
 Page 2




 Recommendation 3


 HCFA should require regional offce (RO) contractor representatives to
 determe the number and tye of subsidiaries at each contractor, and their
 roles wi th respect to Medicare ,   perhaps as part of the Annual Contractor
 Evaluation Report (ACER).

 Response

We agree and have already undertaken such action. On May 21 , 1991 , we
sent a memorandum to all the ROs directing them to obtain this information
from their contractors. We will update this data periodically, although we are
not yet sure that the ACER is the proper means for doing so.


Recommendation 4


HCFA should work with contractors who are not able        to   accommodate
electronic bill   from all tyes of providers to develop simple generic programs
for example , which small providers can use in different juridictions. This
would be simplified by more consistent carrt;r programs and systems.

Response

We agree with this recommendation. Ths will be an ongoing process. The
recently implemented Carrer National Standard EMC Format will help
eliinate inconsistent requirements among the caers , thereby improving the
EMC situation for multi-jurisdiction providers. In addition , we are currently
expanding the Medicare Manual instructions to require contractors to accept
all bil and media tyes electronically.


Recommendation 5


HCFA should consider contractors ' general busines operations when awarding
Medicare contracts.
 Page 3




Response

We do not agree with this recommendation. We agree the idea has merit.
However, neither sections 1816 and 1842 of the Social Security Act nor the
Federal Acquisition Regulations extends to HCFA the authority to delve into a
contractor s priate lies of business as pan of the contractg process. Unless
a contractor has been convicted or is under indictment for some violation of
the law, or we have received substantial evidence of miconduct, we have no
way of knowig what a contractor does in its non- Medicae lies of
                                                                       business.

General Comment

TIs draft report is rather sparse with   respect to specifc facts. For example
four intennediares are mentioned in the draft report but are not
                                                                  identifed.
While we have learned informally which intennediares were investigated, it is
difcult to respond to GIG' s findings without knowig specific facts concerning
each intermediary. It would be helpful to us if the final version   of thi report
included more specific details.
